fT

Q@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No.
STATE OF OKLAHOMA,
Petitioner,
v.
JESSE ALLEN JOHNSON,
Respondent.
AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of August, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DAVID W. PRATER
Oklahoma County
District Attorney

JIMMY R. HARMON
First Assistant
District Attorney

JENNIFER M. HINSPERGER*
Assistant District Attorney

*Counsel of Record
OKLAHOMA COUNTY

DISTRICT ATTORNEY’S OFFICE
320 Robert S. Kerr Avenue,

Suite 505
Oklahoma City, Oklahoma 73102
(405) 713-1600
dajenhin@oklahomacounty.org

Subscribed and sworn to before me this 22nd day of August, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

canes Not 6 Clie Qudiav-h, Chl

My Commission Expires Nov 24, 2020

 

Notary Public

38296
Counsel for Respondent Jesse Allen Johnson:

Andrea D. Miller

Melissa French

Oklahoma County Public Defender’s Office
320 Robert S. Kerr Avenue, Suite 400
Oklahoma City, OK 73102

(405) 713-1550

andrea.miller@oscn.net
